             Smithsonian Institution 	                                                          Memo

             Office of the Inspector General




  Date       July 1,2011

    To       Bill Moggridge, Director, Cooper-Hewitt, National Design Museum

      cc 	   Andrew Zino, Comptroller 

             Bruce Dauer, Acting Chief Financial Officer 

             Caroline Bauman, Deputy Director, Cooper-Hewitt, National Design Museum 

             Nate Wilcox, Dire~~p~o~ Cooper-Hewitt, National Design Museum 

 From        A. Sprightley Ryan, Inspector General
Subject 	    Management Advisory on Controls Over Admission-Related Cash Receipts at the
             Cooper-Hewitt, National Design Museum, Number M-ll-03


             A recently discovered pattern of theft of $55, 173 in cash from the Cooper-Hewitt,
             National Design Museum alerted us to weaknesses in the museum's internal controls over
             admission-related cash receipts. As a result, we initiated a review to: (1) analyze the
             internal control deficiencies that allowed the theft to occur and go unnoticed for over two
             months, (2) understand the actions taken by museum management in response to the
             theft, and (3) assess the adequacy of the internal control enhancements over admission­
             related cash receipts to minimize the risk of similar thefts.

             BACKGROUND
             Cooper-Hewitt, National Design Museum is the only museum in the nation devoted
             exclusively to historic and contemporary design. Cooper-Hewitt is housed in the
             landmark Andrew Carnegie mansion in New York City. Cooper-Hewitt's collections
             contain more than 250,000 design objects and a design library. The museum is in the
             process of a major renovation; museum officials plan to close the Cooper-Hewitt
             Museum building during the summer of2011 and reopen it in 2013 when renovations are
             complete.

             The Cooper-Hewitt Museum is one of two Smithsonian museums that charges
             admission. The museum currently collects $15 for general admission and $10 for senior
             citizens and students. The museum accepts payment by cash, check, or credit card. The
             museum collects, on average, $680,000 in admissions fees each year.




             MRC524
             PO Box 37012
             Washington DC 20013-0712
             202.633.7050 Telephone
             202.633-7079 Fax
The Theft
An employee in the Operations Division stole $55,173 in admission receipts, which
represented a substantial portion of the total cash collected for admission to the museum
for the months of August and September 2010. The employee was responsible for
controlling numerous aspects of the cash management process, including maintaining
custody of cash collections, depositing the cash in the bank, and preparing the daily cash
receipts voucher (CRV) for submission to the Office of the Comptroller (OC). Cash
admissions sales are recorded in the museums ticketing system (TM Vista) at the point
when cash is collected. The museum’s ticketing system provides an independent control
point to confirm that the amount of cash actually deposited in the bank, and reported to
the OC for entry into the official accounting records, is complete. No one in a supervisory
or review capacity over the employee who stole the cash routinely confirmed that cash
deposits were made timely, nor validated that all daily admissions sales cash recorded in
the museum’s ticketing system was deposited daily in the bank and reported daily on the
CRVs. Although the Finance Department verified the accuracy of the CRVs to the
ticketing system, they did not ensure that all CRVs were submitted to the Finance
Department daily. The employee concealed the theft by delaying both the deposits and
the submission of the cash receipts vouchers.

The theft came to the attention of the Cooper-Hewitt Museum’s Chief Financial Officer
(CFO) in October 2010 when he noticed that the cash receipts vouchers had not been
prepared for cash admission sales for the two months in question. The museum officials
contacted the bank and confirmed that no cash had been deposited for that time. After
referral from our office, the United States Attorney’s Office filed a criminal complaint and
the individual pled guilty to one felony count for this theft at a hearing on June 1, 2011
before the U.S. District Court for the Southern District of New York. The court scheduled
a sentencing hearing for September 16, 2011. On June 14, 2011, Cooper-Hewitt
management told us that they have secured the admission cash receipt process and will
discontinue admissions after the museum closes for renovations on July 5, 2011.
Management also told us that they will hire a new Chief Financial Officer and new Visitor
Services Manager who will seek further process improvements. The museum is scheduled
to reopen in approximately two years.

Internal Controls
Deficiencies in the museum’s internal controls allowed the theft to take place and go
unnoticed. Principally, the museum relied on the same person to handle all admissions-
related cash activity. In May 2009, due to budget constraints the museum reduced the
Finance Department’s staffing from four to three positions and combined three key duties
within the Operations Department: custody of cash, depositing cash in the bank, and
preparing the daily CRVs. The Operations Department in turn entrusted a sole employee
to handle all three duties.

Before May 2009, the museum had divided these duties between the Operations
Department and Finance Department. The Operations Department had custody of the
cash, while the Finance Department made the daily bank deposits and prepared the daily
CRVs.

In addition, there were other control breakdowns that allowed for the theft to take place
and go unnoticed:

                                             2

Lack of Written Procedures in the Operations Department

Although the museum’s management moved duties under the Director of Operations, the
museum did not develop written procedures for supervision of these duties. No one
prepared written procedures for someone to: (1) confirm that all daily cash receipts were
counted and that bank deposits agreed with the cash admission sales in the TM Vista
ticketing system, (2) secure cash in the museum’s safe each night, (3) ensure that the daily
cash received by the museum was deposited in the bank promptly, and (4) verify the
accuracy and completeness of cash activity recorded on the CRVs. The absence of such
procedures prevented the museum from detecting the theft within its own organization.

Inadequate Procedures in the Finance Department

We found that the Finance Department also lacked detective controls that could have
promptly served to identify that a theft had taken place. The Cooper-Hewitt CFO did not:
(1) compare bank statements against the cash recorded in the TM Vista ticketing system
to confirm that all cash was deposited in the bank daily;1 (2) compare CRVs daily against
the TM Vista ticketing system to confirm that all cash was reported to the OC daily for
recording in the official accounting records; (3) review the timeliness of CRV transmittals
to the OC; (4) match CRV’s daily against the posting to the general ledger to confirm that
all CRV’s transmitted to OC were actually recorded in the general ledger; 2 or (5) review
voided transactions. 3 By not designing these procedures into its system of internal
controls, the museum failed to fully utilize the function of the CFO to internally oversee
the high-risk cash management practices of the Operations Department.

Smithsonian Institution Response to the Theft
Museum management responded to the theft by correcting the major control weakness, a
lack of segregation of duties. Management reverted back to the original division of
responsibilities that existed prior to May 2009: the Operations Department maintains the
custody of cash, while the Finance Department makes the daily bank deposits and
prepares the CRVs.

Additionally, the CFO improved the museum’s supervision over these duties in both the
Operations and Finance departments by developing and improving written procedures
(see the diagram in Appendix A).

First, the CFO developed written procedures to strengthen the management oversight of
the admission-related cash process within the Operations Department. The procedures
call for Operations Department staff to:

    •	 secure the cash received each day in the museum’s safe nightly,
    •	 document that all daily cash receipts were counted, and
    •	 verify the cash count to the cash admission sales amount per the payment

       summary report from the ticketing system.


1
  There was no Finance Department or Smithsonian procedure that required the CFO to receive or review

bank statements.

2
  The CFO reviewed cumulative CRV postings to general ledger for reasonableness each quarter.

3
   Voided transactions involve the cancellation of an admission fee and return of money to the museum

patron. Without careful control, Admissions’ staff could conceal a theft by recording a fictitious void on

the ticketing system after the fact.

                                                     3

Second, the CFO developed revised written procedures to strengthen management
oversight of the admissions-related cash process in the Finance Department. The
procedures call for the CFO to personally:

    •	   pick up the cash daily from the safe and prepare the deposit slips,
    •	   compare deposits slips to the admission report and the ticketing system, 4
    •	   review voided transactions using a new report from the ticketing system,and
    •	   make daily bank deposits.

The procedures also call for the Finance Department staff to:

    •	 ensure that the daily cash received by the museum was deposited in the bank,
    •	 prepare the CRVs, and
    •	 ensure the accuracy and completeness of the CRVs.

RESULTS OF OIG REVIEW
We reviewed the design of internal controls over the admission-related cash receipt
process and tested transactions for the month of November 2010. We found that the
museum has improved the controls over depositing cash receipts from admissions and
has re-segregated the cash management duties. The museum now separates the tasks of
maintaining custody of cash, making bank deposits, and recording cash activity on the
CRVs. Such segregation of duties is important because an individual with both custody of
cash and access to accounting records can hide a theft of cash by manipulating the
accounting records. We tested all the internal control improvements in the Operations
and Finance departments and generally found them working as intended.

The museum could further strengthen internal controls in the following manner:

    •	 Management was not ensuring bank deposits were always made within one
       business day. We found that the museum took a week to deposit some cash
       because the CFO was on annual leave. The museum should promptly deposit
       funds even when key personnel are absent. The procedures did not provide for an
       alternate person to make deposits.

    •	 The Finance Department was not ensuring that CRVs were promptly sent to OC
       in Arlington, Virginia or ensuring OC promptly recorded the CRVs into the
       Smithsonian’s accounting records. The department kept a log of CRVs the
       Finance Department sent to OC; however, the log did not track the date they were
       sent. The CFO performed a cursory quarterly review of accounting records to
       ensure that that OC has promptly and accurately recorded the accounting
       information from the CRVs into the Smithsonian’s accounting records. We
       believe that a cursory review of the accounting records is not an adequate control.
       For example, OC did not post 46 percent of November 2010’s daily cash receipts,
       totaling $15,110, to the accounting records as of the time of our review. The
4
 During our review, the Operations Department began running a report from the ticketing system that
summarized daily activity. Before our review, because the Operations Department relied solely on the
admission staff’s review of a ticketing system screen, the department had no paper record from the system
to verify daily admission cash sales. The Finance Department had a ticketing system report that summarized
daily activity; however, in the past they had not checked to ensure that the CRVs produced agreed with the
daily activity on that report.
                                                    4

       museum should routinely conduct a detailed verification that OC has promptly
       and accurately recorded the accounting information into the Smithsonian’s
       accounting records.

   •	 The CFO was not reconciling the bank deposits to data from the ticketing system.
      The CFO could strengthen controls by reconciling the deposits on the bank
      statement monthly to ensure all cash received has been deposited.

Conclusion
Although the museum corrected the most significant control weaknesses, we believe that
more can be done to limit the risk of theft. We recommend the museum make the
following improvement to strengthen its controls over admission-related cash receipts:

       1.	 Strengthen cash management procedures to require the Finance Department
           to deposit cash receipts in the bank within one business day of receipt. The
           museum should assign an alternative person this duty for those instances
           when the designated staff person is not available.
       2.	 Promptly submit accounting information to the Smithsonian’s OC in
           Arlington, Virginia for recording into the Smithsonian’s official accounting
           records.
       3.	 Routinely review the accuracy of CRV postings into the Smithsonian’s official
           accounting records. The museum could reconcile monthly the amounts on the
           CRV’s sent to OC to the amounts OC recorded in the accounting records.
       4.	 The CFO should review bank statements for accuracy and completeness of
           deposits.


Please notify us in writing within 60 days how you have handled these matters. If you
have any questions, please call Brian Lowe or Daniel Devlin on 202.633.7050.




                                            5

APPENDIX A. Cooper-Hewitt Admissions Sales Process Chart

         Cooper-Hewitt Museum
         Cash Receipts from Admissions Fees
         December 2010




                                       6

